No. 20-

-8326

In The

Supreme Court of tlje Urntotr States;
SuPrem

MICHAEL ADEFEMI ADEYEMO

4ed ua

Ji/iV - s 2021
Petitioner-Appellant,
imCLERK
V.

United States Of America,
Plaintiff-Appellee.

On Petition for a Writ of Certiorari to the United States
Court ofAppeals For The Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

MICHAEL ADEFEMI ADEYEMO
10621-059

FCI OAKDALE II
FED. CORR. INSTITUTION
P.O.BOX 5010
OAKDALE, LA 71463
Appearing Pro Se

'•

RECEIVED
I JUN 1 5 2021

-i-

QUESTIONS PRESENTED

I.

Whether the Fifth Amendment "self-incrimination clause"
protects a defendant during the change of plea colloquy
against compulsory self-disclosure of incriminating],.,
testimonial, and uncharged name and identity that lead
to evidence and conviction’of a separate offense.

II.

I

Whether the "nexus requirement" engrafted. onto 18 U.S.C
§ 1503 omnibus clause requires a jury instruction in a
criminal prosecution based on false statement.

•

ii
PARTIES TO THE PROCEEDINGS
Petitioner-Appellant, Michael Adefemi Adeyemo, was a criminal
defendant in the United States District Court of North Dakota, Eastern
in case numbers 3:'08-cr-28 (2012), 3: 15-cr-90 (2020), and as Appellant
in criminal case tittled United States v. Adeyemo, 819 Fed. Appx.
(8th eir. May 12, 2020). Respondent, United States of America, was
the Plantiff in the District Court and Appellee in the Eighth Circuit.

iii
TABLE OF CONTENTS:

QUESTIONS PRESENTED

Page
..••i.......

PARTIES TO THE PROCEEDINGS

■ii

TABLE OF CONTENTS

iii

APPENDIX TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

v

OPINION BELOW

A

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL PROVISION INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE PETITION
(I).

The Eighth Circuit Opinion erred and in conflict
with ''HLCbel's precedent and the Fifth Amendment
privilege against ' compulsory disclosure'' of
"testimonial" and "incriminating" name and
identity, s........................................................ ...................... 10-20

(II). The Eigjhth Circuit Court of Appeals Erred
and has emerged a conflict with the Supreme
Court's precedent on the application of the
nexus requirement to §. 1503 obstruction
of justice Statutes ................................................. .....
(III). The Eighth Circuit's opinion is in conflict
with the Supreme Court's Arthur Andersen
precedent on instructional flaw to a failure
to convey the nexus instruction............ ........................ .
(IV). The Eighth Circuit opinion is in conflict with
the Sufficiency of evidence legal standard
applicable precedent to § 1503 ........... ..............................
(V).

CONCLUSION

The Eighth Circuit Appellate opinion has triggered
a conflict between Court of Appeals' bn the application
of the nexus requirement to § 1503 prosecutiopuand
conviction. ............................................................................

,20-29

29-30

31-33

33-36
36

iv
APPENDIX TABLE OF CONTENTS
PAGE
The United States District Court Order and Judgment
in criminal case number 3:15-cr-90, and jury
instructions..................................... . ..
The Eighth Circuit Court of Appeals' opinion
affirming the district court's sentence and
denying petitioner's Fifth Amendment, "Nexus
requirement" juryi '.^instruction, and insuff icency
of evidence" claims........................ .........

v •

"appendix a"

ADD_l(a)(b)

"APPENDIX A"

V

TABLE OF AUTHORITIES
Gases:

Page

Supreme Court Cases
Allen v. Illinois, 478 U.S. 364, 375 (1986)......................

......... 18, 20

Arthur Andersen LLP v. United States, 544 U.S. 696(2005) • • • • 20.23.26,28,29, 30
3$, 3?4
’ ’
Boyd v. . United States, .116 U.S. 763-64,(1886)................
............. 17, 18
Boykin v. Alabama, 395 U.S. 238, 242 (1969).................... .
14
Brown v. United States, 356 U.S. 148, 156 (1958)........... .
14, 16
Brown v. Walker, 161 U.S. 591, 598 (1896)............................
11, 12
Calhoon v. Harvey, 397 U.S. 134, 137 (1964)........................
33
California v. Byer, 402 U.S. 424, 440 (1971)....................
12,13,18
Cater v. United States, 530 U.S. 255, 259 (2000)...............
Chavez v. Martin, 538 U.S. 760, 770 (2003) ........................
Doe v. United States, 487 U.S. 424, 440 (1971)
Emspak v. United States, 349 U.S. 190, 200-01 (1955)........
Garner v. United States, 424 U.S. 648, 654 (1976)............
Hiibel v. Sixth Judicial Dist. Court, 542 U.S. 177 (2004)
Hoffman v. United States, 341 U.S. 479 (1951).............
Houston v. Hill, 482 U.S. 451, 459 (1987) ............... .
In ReMichael, 326 U.S. 224, 227-28 (1945)..................

124
19
111
10
11
7,8,9,11.12,13, 15
16,18,19,20
11,12, 13, 16, 18
126
27

Jackson v. Virginia, 443 U.S. 307, 318-19 (1979) .....
Kastigar v. United States, 406 U.S. 441, 445 (1972)

32
12
Marinello v. United States, 138 S.Ct M01, 200L.ED.2d 356(2018) •... 20,21,22,23
24, 25, 29,’30,’34’
Minnesota v. Murphy, 465 U.S. 420, 426 (1984)..............
18
Mitchell v. United States, 526 U.S. 314, 325 (1999)...
11,1} 16
Ohio v. reiner, 542 U.S. 17, 18.(2001)..........................
11^16,17
19
Pennsylvania v. MuniZ., 496 U.S. 582, 598 (1990)..........
10,11,12
14,18,19
Rahaif v. United States, 588 U.S.
(2019)
24
Rogers v. United States, 340 U.S. 367, 371 (1951)
17
Schmerber v. California, 384 U.S. 257, 263-64 (1966)..........................
10
United States v. Afpelbaum, 445 U.S. 115, 131 (1980)..........................
21
United States v. Dionisio, 410 U.S. 1, 5 (1973)............................ .
33
United States v. Goodwin, 457 U.S. 368, 372 (1980)........... ....1...
19
United States v. Hubbell, 530 U.S. 27, 37 (2000).^..............................
11,12
United States v. Martin Linen Supply Co. 430 U.S. 564, 572-73(1977)
United States v. Patane, 542 U.S. 630, 636-37 (2004)..........................
United States v. Washintong,431 U.S. 181, 188 (1979)..........................

26
20
15

vi
Zicarelli v. Newjersey State Comm'n of Invest* 406 U.S. 472 , 478(1972)
United States v. X-Citment Video Inc. 513 U.S. 64, 72 (l994>--».........
Court of Appeals

O&

United
United
United
United
United
United
United
United
United
United

States
States
States
States
States
States
States
States
States
States

v.
v.
v.
v.
v.
v.
v.
v.
v.
v.

15
24.25
Page

Adeyemoy 819 Fed. Appx. 469 (*thcir. 2020).................
Blair, 661 F.3d 755, 767 (4th cir. 2011)....................
Brown, 459 F.3d 509, 530-32,n. 19 (5th cir. 2006)....
Calipari, 368 F.3d 22, 42-43 , n. 10 (1st cir. 2004)...
Littleton, 76 F.3d 614, 619 (4th cir. 1996)...............
Qattrone, 441 F.3d 153 (2nd cir. 2006)......... .............
Schwarz, 283 F.3d 76, 107-09 (2nd cir. 2002).............
Sharpe, 193 F.3d 852, 864-65 (5th cir. 1999)...............
Sun Myung Moon, 718 F.2d 1210, 1236 (2nd. cir. 1983).
Thomas, 916 F.2d 647, 652 (11 cir. 1990) .....................

1,2
35
34
34
35
35
34,35
34
34

34,35
United States v. Triunph Capital Grp. Inc., 544 F.3d 149, 17l(2nd cir.2008). .34
United States v. Tyler, 732 F.3d 241, 249-50 (3rd cir. 2013).
35
United States v. Wood,. 6 F.3d 692, 696 (10th cir. 1993) .....

. . 33

District Court
United States v. Adekunle Adetiloye, No. 3:08-cr-28(2012)
United States v. Michael Adeyemo,et all, No. SACR01-75 ...

ii,2
?. 2,3

vii

Statutes, Rules and Regulations
Page

18 U.S.C. § 1503 *•••••............................................ .
18 U.S.C § 1512(b)(2)....... ....................
26 U.S.C.' § 7212(a)........................-..................... ■•••■
• Federal Rules of Crminal procedure Rule 10. •
Federal Rules of Crminal procedure Rule 11------- »•
Federal Rule of Crminal Procedure Rules 28 and 33
28 U.S.C. 1254(1) ....................................................
. Fifth Amendment of the Constitution..........................

i,4,5,7,20,21,22.23
24,25.26.27,28,31,33,
•34, 35, 36
.
29
IS
2, 13
4
........................ 4
......................1,4,5,6,7
8,9,10,11,12-,13,14,15,16
17,18, 19,20,27

1
Petitioner respecfully prays that a writ of certiorari issue to review
the judgment below.

OPINIONS BELOW
The opinion of the United States Court of Appeals for the Eighth Circuit
appears at Appendix A to the petition and is reported at United States
v. Adeyemo, 819 Fed. Appx. 469 (8th cir. May 12, 2020)

STATEMENT OF JURISDICTION
The date on which the United states Court of Appeals decided my case
was September 2,-2020. A timely petition for rehearing was denied by
the United States Court of appeals on November 18, 2020, and a copy
of the order denying rehearing appears at Appendix A. An extension
of time to file the petition for a writ of certiorari, was granted by
the Supreme Court due to Covid 19 <mit±reak within the BOP facilities.
The jurisdiction of this Court is invoked under 28 U.S.C § 1254(1).

CONSTITUTIONAL PROVISIONS INVOLVED
Fifth Amendment of the United States Constitution
The F ifth Amendment to the United States Constitution provided in
pertinent part:
"No person...

shall be compelled in any criminal'
case to be a witness against himself, or be deprived
of life, iJiberty or property without due process of
law"

2
STATEMENT OF THE CASE
In 2008,the United States government indicted
the Petitioner under the name Adekunle Olufemi
Adetiloye,and-was extradited from Canada into the
United States pursuant to the United States and
Canada extradition treaty,to face federal bank fraud
charges in the district of North Dakota in case number
3:08-cr-28. The 2008 indictment did not charge or
list the other name,to wit; Michael Adefemi Adeyemo
that the Petitioner had previously used before,or
listed any 2001 pending criminal charges in California
for fraud.
On February 9th 2011, the Petitioner openly .
pled guilty to an information in the district court
of North Dakota to fraud charges in violation of
18 U.S.C 1342. During the change of plea colloquy
pursuant to the Federal Criminal procedureF Rule 11.
The district court judge asljed the Petitioner if
he was Adekunle Olufemi Adetiloye and the person
charged in the indictment, and appearing before the
court. The petitioner1 truthfully identified .himself as such,
. and provided the name charged in the indictment in.,
relation to the factual evidence in the discovery,....
the scope,purpose and practical demands of Rule 11.
During the change of plea colloquy,the district court
did not ask the Petitioner if he had other names
previously used and any other pending criminal charges
in United States. Hence, the Petitioner did not
volunteer additional names previously used,because
he was never asked, and also due to a pending federal
criminal charges in California for fraud in case
styled United States v. Michael Adeyemo, et al.No. SACR01-75..
The district court discharged its duty and found
both voluntary,intentional and factual basis to accept
■ the plea. Following the judicial acceptance of the

-

3
of plea and pre-senetnce. investigation report conducted
on March 9th, 2011. The Petitioner was convicted in 2012
in case sStyled United States v. Adekunle Olufemi. Adetiloye
No.3:08-cr-28, and sentenced to seventeen and half years.
• Following this conviction,and based on an anonymous.', tip.
On October 19, 2016, a grand jury returned a superseding
indictment that charged the Petitioner with four counts of
obstruction of justice in violation of 18 U.S.C 1503 and
2,relating to the previously convicted underlying case.
The four counts for obstruction of justice alleged
that Adeyemo corruptly influenced, obstructed, impeded,or
endeavor to influence,obstruct and impede the due
administration of justice in case tittled United States
v. Adekunle Olufemi Adetiloye, case no. 3;08-cr-28, and
United States v. Michael Adefemi Adeyemo, case no.
SACRQ1-75. Even though the California's case was not
part of the underlying case, or a relevant conductor
part of the common scheme of the 2008 case. Count One
charged that by providing false information concerning
his name,date of birth during the change of plea before
the district court on February 9,2011.Petitoner obstructed
justice. Count Two charged that the Petitioner obstructed
justice during the interview with the pre-sentence
report interview of March 3,2011,when he provided same
information. Count Three stated that by providing false
information concerning his name and date of birth during
change of plea hearing of February 9,the Petioner obstructed
justice in the California's case. Lastly, Count; Four
charged that by providing false information regarding
the name and date of birth during the interview with
pretrial services on March 3,2011,the Petitioner
obstructed justice in the California's case. ■
Therefore, prior to the commencement of the jury
trial* Adeyemo plainly argued for and submitted the
theory of defense jury instructions. The Petitioner
the trial court to convey the "nexus
requested
requirement" instruction, and additional instructions

4
including the Fifth Amendment right against Self-incrimination,
and that the government must prove beyond a reasonable
doubt,the nexus relationship in time,causation or logic
with the judicial proceedings charged under Counts One
to Four.The Petioner's proposed Mnexus requirement"'
and the Fifth amendment instructions, were the correct
statement of the law under "Aguilar" and the Constitution.
These instructions were not covered by other instructions
which were delivered, and dealt with vital issues properly
placed before the jury.
However,the trial court failed to convey the Fifth
amendment,"nexus requirement" and the prove of "nexus
requirement " beyond a reasonable doubt instructions
to the jury.The trial court's jury instructions 12
and 14 eviscerated these instructions. Hence, at trial
since these instructions were never submitted to the
jury. The government did not prove beyond reasonable
doubt,the nexus between the alleged false statement
and the judicial proceedings. Equally, the jury did
not make a factual determination that Adeyemo's alleged
false statement had requisite natural and probable
effect to interfere with the due administration of
justice of the judicial proceedings charged-under
Counts One to Four. See "Appendix A" addendum 1(a).
At the close of the government's case,Adeyemo
timely moved and renewed his motion for judgment of
acquittal under the Federal Rule of Criminal Procedure
Rule 28, and motion for New trial under Federal Rule
of Criminal Procedure Rule 33. Based on the Fifth
Amendment Constitutional right violation, error of
law in the jury instruction, insufficient evidence
at trial and the government’s failure to meet its
burden of prove on "nexus requirement" beyond a
reasonable doubt. The "Self-incrimination clause"
argument was based on the claim that. Adeyemo had
the Constitutional protection not to voluntarily

. .

disclosed as part of the North Dakota's proceedings
the incriminating and testimonial name;to wit Michael

5
Adeyemo, not charged in the 2008 indictment and unrelated
to the 2008 underlying offense in North Dakota. On
January 23■,20-T9-T the district court denied these motions ..
despite overwhelming evidence of a"substantial"and real"
pending federal charge in California. The district court
based its denial on the ground that the "nexus requirement"
instruction was inapplicable, and "the defendant was
not involved in a Terry stop and did not refuse to identify
himself to law enforcement for fear that identifying
him would lead to conviction of a separate crime." See App.A, 1(a).
The district court sentenced Adeyemo to 120-months
concurrent terms, which are to run consecutive to United
States v.Adekunle Adetiloye, case number 3:08-cr-28,and
consecutive to any future sentence imposed in the Central
district of •'California. See "APENDIX A", addendum 1(b).
On appeal to the Eighth Circuit Court of appeals
in the case tittled United States v. Adeyemo, 819 Fed.
Appx. 469, May 12,2020. Adeyemo argued that under "Hiibel"
the "Self-incrimination clause" protected him from a
voluntary disclosure of another incriminating and testimonial
name he previously used. Because there was a pending
Federal criminal chrage in California which the Petitioner
was fearful of. Also, that the district court abused
its discretion and erred for failing
to submit the
proposed "nexus requirement" instruction articulated
in "Aguilar". Accordingly, the evidence presented at
trial was insufficient to sustain a conviction.
On September 2, 2020 the Appellate court overlooked
a glaring failure to submit the "nexus requirement" jury
instruction and the "Self-incrmination .clause"

jury

instructions.The Eighth Circuit Court of Appeals affirmed
the district court's conviction, despite the failure
of the government to prove the "nexus requirement"
beyond a reasonable doubt.The court denied the Petitioner's
Fifth amendment claim on the ground that "the defendant
did not assert his right to remain silent in fear of
self"incrimination* Instead,Defendant repeatedly provided

/

6
false identification and information to the court and
its officers during the prosecution of his case".See

v

page 2 "Appendix A
Same court also denied the Petition
for Rehearing and Rehearing enbanc on November 18,2020,and
issued its Mandate on November 25,2020. Hereto, Adeyemo
petitions for Certiorari, asking this court to decide .
whether the Self-incrimination clause" of the Fifth
Amendment protects a defendant from a voluntary' disclosure
of testimonial and incrminating name and identity that
would lead to a conviction of a separate offense. Also,
whether the 18 U.S.C 1503 "omnibus clause" criminal
prosecution and conviction based on false statement.
Requires the "nexus requirement" instruction be submitted
to the jury.
REASONS FOR GRANTING THE PETITION
The Petitioner respectfully seeks a writ of Certiorari
to review the erroneous decisons of the Eighth Circuit
Court of Appeals. Which upheld a conviction in violation
of the Fifth amendment right against "Self-incrimination"
to disclosure of incriminating name and identity during
an "accusatorial" judicial proceeding. Hence, made a
highly questionable ruling on the application of the
"Self-incrimination clause" defense,to answering a request
to disclose a "testimonial" name that provides a link
of evidence needed to convict a person for a separate
offense.
Same decisions also endorsed and affirmed the district
court's obtruction of justice criminal conviction under
18 U.S.C. §1503. Where the district court seemingly,
(I) - Failed to convey the requisite "nexus requirement"
instruction to the jury. (2) Provided the jury with
flawed jury instruction, and (3) Led the jury to believe
it did not have to find any "nexus" between Adeyemo's
alleged false statement and the obstruction of the
judicial proceedings charged under counts One to Four.

)

7
Bearing on these erroneous decesions issued by the
Eighth Circuit Court of Appeals. There are more than one
compelling reason to grant this Certiorari. The fundamental
questions here concern the breadth of the Fifth amendment
privilege against "Self-incrimination", and the application
of the "nexus requirement" intsruction to §. 1503. This
case raises genuine and substantial questions of gravity
and importance,that have matured and need further
clarification by this Court,both on the "Self-incrimination
clause" and §. 1503 claims.
Certainly, custodial investigative identification
questions and answers, and compulsory disclosure of name
and identity. Are transcendent issues of law in both civil
and criminal cases in post -"Hiibel" era. Because a person's
identity contains informational and incriminating worth
that explicitly or implicitly relate factual assertion or
disclose information. However, Seventeen years after
deciding in Hiibel v. Sixth Judicial Dist. Court, 542 U.S.
189(2004), that a person's name and identity are only
testimonial

and

incriminating' in "unusual circumstances'.'

Where such disclosure "would furnish a link in the chain
of evidence needed to prosecute the claimant for a federal
crime". The Supreme Court has not considered, or decided
and resolved the novel question, whether‘the "unusual
circumstances" propounded in "Hiibel's" police-"traffic
stop II II Terry claim challenges. Applies to a court room
"accusatorial judicial proceeding, and how a court measures
a person's fear of prosecution in a separate offense,for
the purpose of the "Self-incrimination protection
Mcore so, the court has not clearly-established whether
the existence of the "unusual circumstances" that leads to
a link in chain of evidence heeded to convict individual
of a separate offense are covered by the Fifth amendment.
Hie question whether-an 'individual may be required in a
judicial proceeding to disclose "testimonial" "incriminating"
and "uncharged" name and identity remains unsettled.

r

8
Therefore, this case begins where'"Hiibel" left off and
kept silent. The Fifth amendment "Self-incrimination"
question of law that subsumes,turns on the "unususal
circumstances" rule propounded by "Hiibel", and concerns
a protected testimonial communication for the Fifth
amendment purposes. Infact, this case seeks further
authoritative' clarification and resolution of the
"unusual circumstances". Where a defendant's failure
to voluntarily disclose "incrminating" and.uncharged
name and identity in an "accusatorial" judicial
proceeding,is "testimonial" and protected by the
'.'self-incrimination clause" of the Fifth amendment.
Also, whether compelled disclosure of testimonial and
incriminating name and' identity that would lead to a
conviction of a separate offense. Violates the "self- ■
incrmination Clause,and if so, "what remedy must follow".
Hence,; in post-"Hiibei" era, this case presents this
court with an opportunity to fill the precedential void
and gap left opened by "Hiibel" under the Fifth amendment.
There is an additional compelling reason to grant
this Certiorari.The general importance of the application
of- law on judicially engrafted "nexus requirement" to
obstruction justice statutes with "catch-all" provision
and "omnibus clause", is critical to'the criminal law
jurisprudence. Though the Supreme Court has held in
United States v. Aguilar, 515 U.S. 593 (1995) Seventeen
year ago, that the government must prove "nexus requirement"
beyond a reasonable doubt. The court has not considered,
determined or resolved the issue whether the engrafted
"nexus requirement" requires a jury instruction. If
so, its scope, nature and application in a false statementbased prosecution under §. 1503 are yet to be authoritatively
clarified by this Court. Hence, determining the scope
and application of the "nexus requirement" instruction
to 18 U.S.C. § 1503 substruction of justice criminal

9
prosecution based on false statement made in a judicial
proceeding, raises a genuine question of federal law. .
'The question whether the "nexus requirement" is a requisite
component of the statutory element of the specific intent,
that must be charged in the jury instruction is highly
dispositive of an important federal, law question in
post- "Aguilar's" era.
Equally important and central to this Certiorari. The
decision of the Eighth Circuit Court of Appeals purports to
resolve an important issue of federal law on the application
of the Fifth amendment "self-incrimination clause" and
the "nexus requirement", in a way that is utterly in
conflict with the Supreme Court's precedents of "Aguilar"
and "Hiibel" respectively on these issues. Therefore,
has unsettled matters previously decided or left open
'by the Supreme Court on these issues.
In the same vein, the unusual posture of the Eighth
Circuit court of appeals decisions, and notable conflicts
with the Supreme Court s precedents. Have emerged a conflict
of decisions among the Circuit Courts on these two issues.
The asserted conflicts in decision emanates from the
differrences in the application of the "self-imcrimination
clause to .answering'arequest to disclose a name, and the
"nexus requirement" jury instruction to § 1503 prosecution
based on false statement.
Most tellingly, it is clear that these conflicts are
one that can only be resolved by the_ Supreme Court alone,
and the disagreement should be .promptly resolved. More to •
the point, granting this Certiorari to reach the merits
of these questions is utterly appropriate and important.
It is necessary to reconcile the divided and long-overdue
conflicting decisions of the Federal Court of Appeals on
these issues, inorder to secure uniformity of decisons
of federal law, both under-§. 1503 and the Fifth amendment.
These conflicts are real and substantial, and this case
is ideal for settling these conflicts. Here, the reasons
to grant this Certiorari are wholly compelling.

. 10
(I).

THE EIGHTH CIRCUIT OPINION ERRED AND IN CONFLICT WITH "HIIBEL'S
PRECEDENT AND THE FIFTH AMENDMENT PRIVILEGE AGAINST "GOMPULSORY
SELF-DISCLOSURE' OF "TESTIMONIAL" AND ^INCRIMINATING" NAME AND
IDENTITY
This case implicates both the "testimonial","incriminating"
, and "compulsion" components application of the Fifth amendment
privilege against "Self-incrimination", to "unusual circumstances"
where implicit or explicit disclosure and factual assertion
of a name and identity could be "incriminating" and
• "testimonial". If such disclosure provides a link
in the chain of evidence that would lead to a conviction
of a separate offense. Though the Eighth Circuit Court Of
Appeals has failed to articulate any legal, or factual, or
evidential and precedential, basis to support its conclusion
that the petitioner was not in fear ofMSelf-incrimination".
The Petitioner asserts that the Fifth amendment
"Self-incrimination clause", protects him during the
"accusatorial" change of plea colloquy and pre-sentence
investigation’interview. Not to volunteer "testimonial"
and "incrminatirig" name and iclehtity not charged in the
indictment. Due to fear of a federal criminal prosecution
in a separate case in California. The Petitoner's silence
not to disclose this name fits the Fifth amendment's
protection. See Schmerber v. California, 384 U.S. 257, 26364 (1966)["The protection of the-privilege reaches an
accused communication whatever form they might take."] ,
Pennsylvania v. Muniz, 496 U.S. 582, 598 (l990)(The court
found the suspect's. Fifth amendment violation and vacated
the sentence imposed. Because Respondent's answer to the
"Six;tieth(60th) birthday question" was protected, where the
content of his truthful answer supported an inferrence that
his mental faculties were impaired), Emspak v. United, 349
U.S. 190, 200-201 (1955)(Reversing the defendant's conviction
on grounds of the Fifth amendment violation. This court noted
that "to reveal knowledge about name individual-all of them
having been previously charged with Communist affiliations,
Szould have furnished a.link in chain of evidence to
prosecute the petitioner for a federal offense").

12
"To qualify for the Fifth amendment a communication
must be testimonial, incriminating and compelled". Hiibel
542 U.S at 189 quoting United States v. Hubblle, 530 U.S. .
27, 34-38 (2000). Communication means information that
"would furnish a link in the chain of evidence needed;to
prosecute claimant for a federal offense". Hoffman, 341 U.S.
at 486. "Incrimination means disclosure that could be used
in a criminal prosecution, or could lead to other evidence
that might be so used". Kastigar v. United States, 406 U.S.
441, 445(1972). "To be testimonial, an accsued communication
must itself explicitly or implicitly relate
a factual
assertion, or disclose information". Hiibel, 530 U.S at 189.
Therefore, the privilege applies , to both "answers
that would in themselves support a conviction", but also to:."those;.that would furnish a link in the chain of evidence .
needed to prosecute the claimant". Hoffman, 542 U.S. at 190.
It "protects against any disclosure that the witness reasonably
believe could be used in a criminal prosecution, or coiiild
lead to other evidence that may be so used". Hiibel, 542 U.S.
at 190. Hence,"the privilege may be asserted only to resist
compelled explicit or implicit disclosure of incrminating
information
and was intended to prevent use of legal
compulsion which would incriminate him". "To invoke the
privilege, it is necessary to show that the compelled
disclosure will themselves confront the claimant with
substantial hazard of sslf incrimination", that is "real
and appreciable" as opposed to " imaginary and unsubstantial".
California, 402 U.S at 429, Brown v. Walker 161 U.S-. 591,
599(1891) .The appellate court did not provide why "’-Hiibel"was inapplicable.
There are sound reasons in law to grant this certiorari.
In face of the overwhelming weight of these legalrauthoritles. The
Eighth Circuit Court of Appeals has cut corneis and has. attempted
to rewrite the eligibilty requirement law for the Fifth amendment.
Eventhough "the Constitution provides no formulae with which
we(courts) can calculate the areas’within this full scope
to which the privelege extends',' Cailifornia 402 U.S.’at-449,
and the "text does not delineate the ways in which a person
may be a witness against himself". Pennsylvania, 496 U.S. at

11

-----

Bearing on these claims, the Eighth Circuit's judgment

is in conflict with the Supreme Court's "Self-incrimination
clause" eligibility requirement precedents propundesd by "Hiibel".The
law is well-settled that the FiFth amendment provides that,
"No person........... shall be compelled in any criminal case to
to be a witness against himself". U.S.- Constitution Amendment
V. "The Fifth amendment protects citizen from being required
to provide compelled testimony that is incrminating". Hiibel,
542 U.S at 189. It "prohibits only compelled testimony", and
"protects person only being compelled by his own compelled
testimonial communications". Hiibel 542 U.S at 189, quoting
Brown v. Walker, 161 U.S. 591, 598 (1896), Doe v. United
487 U.S. 201, *206 (1988). The primary context from which
"the privilege emerges is that of the criminal process both
in the investigatory and trial phases". California v. Byer,
402 U.S 424,440(1971). "its protection encompass compelled
statement that leach to discovery of incriminating evidence,
eventhough the statements themselves are not incriminating
and are not introduced into evidence". Hiibel 542 U.S at
195 quoting; United States v. Hubbell, 530 U.S. 27, 37,(2000).
• It maintains the "accusatorial criminal justice system".
Hoffman v. United States, 341 U.S. 479 (1951), Mitchell v.
United States, 526 U.S. 314, 325 (1999)("Criminal proceedings
rely on accusation provided by the government, not on
inquisitions conducted to enhance its own prosecutorial
power"). "Ihe privilege prevents a witness from voluntarily
testifying on matter which would incriminate him". Garner
v. United States, 424 U.S. .648, 654 (1976) . "It protects
innocent as well as the guilty". Ohio v. Reiner, 542. U.S.
17, 18 (2001)."It is designed to protect the use of the legal
process to force from the accused lips evidence needed to
convict him". White v. United States, 322 U.S 694 (1949).
"The privilege is founded on our[courts'] unwillingness
to subject those suspected of crime to the cruel trilemma
of self-accusation, perjury or contempt". Pennsylvania
. v.Muni31 496 U.S. 582, 594 n.8 (1990).

13
589. The Supreme Courts

"Fifth amendment precedents have
instructed the Fifth amendment be given a construction as
broad as the mischief against which it seeks to guard........
and courts are obligated to fashion for itself standard
for application of the privilege". California, 402 U.S, at
449. See Hoffman, 341 U.S. at 486 ("The amendment must be
accorded ,libral construction in favor of the right it was
intended to secure"). here, making this determination is pertinent.
The Eighth Circuit Appeal's conflicting opinion under
scrutiny. Ignored that in Hiibel, the Supreme Court
authoritatively propounded that "a person's identity
bore informational and incriminating worth even if the name
itself was not inculpatory", Hiibell 542 U.S at 196 • Hence,
a: disclosure of a name and identity may be testimonial
and incriminating , in "inusual circumstances",because " one s
name may qualify as-an assertion of fact relating to identity".
See Hiibel, 542 U.S. at 189 quoting Hubbell, 530 U.S. 35.
Therefore 'answering a request to disclose a name likely
to be so insignificant as to be incriminating only in
unusual circumstances
where there is a substantial
allegation that furnishing identity
could give a link
in chain of evidence needed to convict the individual of
a separate offense tl ft the court can then consider whether
the Fifth amendment applies, whether it has been violated,
and what remedy must follow". Hiibel, 542 U.S. at 191.
This case brings to bear the "inusual circumstances"
prong and the Federal questions of law left-open by Hiibel.
Agreeable to this usage and principle, Adeyemo argues that the
§ i503conviction violates the Fifth amendment against compulsory
incrimination and involuntary disclosure 'of another different
and "uncharged',' "incriminating"and "testimonial" name during
the change of plea colloquy before the district court on
February 9, 2011 and the presentence interview of Msarch 9,
2011 respectively. The three qualifications to invoke the
Fifth amendment privilege are present in this case, and the

-

Eighth Circuit erred and conflicted with'Hiibel's authoritative
precedent on the application of the "self incrimination clause"
protection to the "unusual circumstances" establihed by "Hiibel".

• 14

.

A perusal of the erroneous and coflicting opinion of the
Eighth Circuit Court of Appeals. Implies Adeyemo to be a "witness
against himself", and "reveal directly his knowledge of facts
relating to his offense, or share his thoughts and believe " with

respect to the "uncharged" name. See Doe, 487 U.S. at 213. However, '
under "Hiibel's" authoritative precedent that avails in claim.
The change of plea proceedings and the presentence investigative
. interview in issue. Were "coercive", "accusatorial", "testimonial",
• and "compelled" in nature under Federal Rule of Criminal Procedure
Rule 11. During which Adeyemo's "freewill was overborne" to
provide "testimonial" and "incriminating" answers before the
trial court'accepted his guilty plea. See Boykin v. . Alabama,
395 U.S. 238, 242 (1969) ("* A plea of guilty is more than a
confession which admits the accused did; various acts, it is
itself conviction, nothing remains but to give judgment and
determine punishment"), Brown v. United States, 356 U.S. 148,156 (1958) ("Sturbbom disobedience of the to answer relevant
inquiries in a judicial proceeding bring into force the power
of the court to punish for contempt").
Being so, tinder the "totality of the circumstances" . ;
including the "context" and "setting in which" the name
questions vece asked. The question regarding Petitioner's name
and identity confronted him with the "trilemma","a choice
between truthfully or falsitly revealing his thoughts and'
forsaking his oath". Penssylvania, 496 U.S. at'596-97. To
this end, .the disclosure of the "uncharged" name, "the contents .
of the truthful answer '"to the name question, and "the ...
response whether'based on truth or false^ containes [ed] a
testimonial component" that \fes incriminating". Pennsylvania,
496 U.S. at .596. This qualify as an assertion of‘ facts relating
to identity for the purpose of the Fifth amendment protection
purposes. Such disclosure "ecplicitly and implicitly relate ..
factudh assertion", and "disclosed information relating to "real
and appreciable danger of a pending and unfinaliZed- Federal
• criminal prosecution in California, which the Petitioner feared,
Hubbell, 530 U.S. n.9 ("The prohibition of compelling a man in a crimin al
court to be a witness against himself is a prohibition of the use of physical
or moral compulsion to extort communication from him") ,

«

4

15
See Mitchell, 526 U.S. at 324 ("A defendant who invokes the
privilege against self-incrimination at the guilty plea colloquy
runs the risk the district court will find the.factual basis
inadequate"), United States v. Washington, 431 U.S. 181, 188 ■
(1979) ("To determine whether a testimony has been compelled
the court examine the totality of the circumstances.to determine
whether the freewill of the witness was overborne"). It is
beyond cavil that the voluntary disclosure of this name,"presented
reasonable danger of incrimination in the pending federal c:.~
crminal prosecution in California, and "not a remote speculative
possibilities". Zicarelli -v.Newjqrsey State Commn &§ Investigation,
406 U.S. 472, 478 (1972) ("It protects against real and not
remote and speculative possibilities"), Ohio,532 U.S. 18-21
( The court held "to fear that answers to possible question :
tend to incriminate was covered by Fifth amendment"), Mitchell,
526 U.S. at 326 (Reversing the judgment of conviction of the
Third Circuit Count of Appeals. The Court noted that "the essence
of the basic Constitutional principle is the requirement that
the State which proposes to convict and punish an individual
produce the evidence against him by independent labor of its
• officers, not by the simple cruel expedient of forcing, it from
his own lips").
As a. threshold argument under "Hiibe 1,' there is no doubt
that "answering a request to a name" during these proceedings.
Involved ''compelled" questions, responses, communicative:: and
answers which were ostensibly "testimonial", and "incriminating"
under oath. As to trigger "Hiibel.'s II II ununsual circumstances"prongs
that .protect Adeyemo .against the "mischief which the Fifth/- ...
amendment safeguards" on "self-disclosing the name; to wit;
Michael Adefemi Adeyemo. Including "any disclosure of answers
that support a conviction", or 'could give a link in chain of
evidence needed to convict him of a separate offense" in
California. See Hiibel, 542 U.S. at 179, 194 ("It is the extortion
of information from the accused, the attempt to force him to
disclose contents of his own mind that implicates the self­
incrimination clause"), Mitchell, 526 U.S. 322-23 (The Fifth
amendment

safeguards against judicial coerced self-disclosure").

16
■J

Simply put, neither the logic of "Hiibel", nor its prudence
. established that Adeyemo must "self-disclose" or volunteer
"incriminating" and "testimonial name "uncharged" during the
change of plea colloquy and post-sentence interview by' the
probation officer. The Eighth circuit opinion completely ignored
that "the purpose of. the court's inquiry at a plea oolloquy is
to ensure that the accused understanch the.charges, and that
there is a factual basis for the government's case, and to
protect the accused from an unintelligent and involuntary plea"
Mitchell, 526 U.S. at 322. Beign so, Adeyemo had no legal
obligation under "Hiibel" to self-dieclose,or volunteer incriminating
and testimonial name during the course of these proceedings .
The issue of Petitioner's identification and initial appearance
for the purpose of the 2008 North Dakota's indictment. Was
resolved at the preliminary "critical sMgjs?" of the arraignment
in 2010 pursuant to Federal Rules of Crminal Procedure Rule
10. See Johnson v. Zerbst, 304 U.S. 458, 463 (1938) ( "Under
Federal Law an araignment is a sine qua non to the trial itself,
the accused plead to it, thereby formulating the issue to be
tried") . Where the name and identity question sought ftir only
the specific name in the indictment. Hoffman,.341 U.S at 486
("The context in which question is- asked imparts additional
meaning to. the question and clarify what information is sought").
•

Therefore, it is evident from the "setting" and "context"

in which the the name question was asked. That, to disclose an
"incriminating" and "testimonial" name , or provide an"explanation
why it cannot be answered was dangerous because injurious
disclosure could result". Hoffman, 341 U.S. at 486-87. infact,
the Supreme Court has' categorically warned that, "a truthful
answer of an innocent witness as well as those of a wrong doer
may provide the government with the evidence from the suspect's
own mouth". Ohio, 532 U.S. at 17-21'. Hence, "the vast mg.qrity
of verbal statement thus will be testimonial, and to that, extent
at least will fall within the privilege". Hiibel, 542 U.S. at-194.
If Adeyemo had disclosed to the court exactly why the answer
could incriminate him, he would surrendered the very protection
which the privilege is designed to guarantee. Hoffman, 341 U.S.
486-87. On the other hand,if the Petitioner had failed to answer

17
the question he would have faced a contempt of court. Brown,
356 U.S. at 156, Hoffman, 341 at 486 (A witness can prevail
in his assertion of - the privilege only when he ''has reasonable
cause to apprehend danger from a direct answer"), Zicarelli,
406 U.S. at 328 (The privilege "protects the accused fron being
compelled to incriminate himself in any manner, and does not
distinguish degree of incrimination"). The Eighth circuit *
opinion simply ignored that the Adeyemo was in genuine fear
of the Pending federal,charge in California when'he gave the
compelled responses which were communication protected under
the Fifth amendment privilege against "self-incrimination".
Boyd v. United States, 116 U.S. 616, 763-64 (1886) (The protection
of the privilege reaches "an accused communication whatever foim they
may take and compulsion of responses which are communications") .
Additionally, it is of obvious relevance that same opinion
erred, and in conflict with the Supreme Court's precedents for
another reasons, and in violation of the Petitioner's Fifth
amendment protection against "self-incrimination". So far as
important here, this opinion is in conflict with the Fifthamendmen tsSe 1 igibi 1 i ty requirement and the ^privilege' s history
of purpose precedents established by the Supreme Court.
Contrary to the erroneous and conflicting decisions
triggered by this opinion. The law is settled that "historically
the privilege was intended to prevent the use of legal compulsion
to extract from the accused a sworn communication of facts •
which would incriminate him". Ohio, 452 U.S. at 18. Hence, a
claimant^eligibility is based on the "testimonial", "incriminating"
and "compulsion" components of the witness'.response, not the
"falsity of the compelled, answers provided by the witness.
Under this legal scrutiny, the appellate court also misapprehended
-that "the decisons of this court are explicit in holding that
the privilege against self-incrimination is solely for the
benefit of the witness". Rogers v. United States,340 U.S 367,'
371(1951). The privilege is not designed to.encourage sealed
lips, but to protect accused fireagdom to decide whether to assist
the state in securing his conviction. Therefore, the privilege

m
does not accrue to the courts. Nor was "designed to enhance
reliability of the fact-finding determination" by the courts.
Allen v. Illinois, 478'U.S. 364, 375 (1986). Nor to enhance
judicially coerced self-disclosure" in the'proceedings. Nor
focuses on "what information'is expected" from Adeyemo during
these proceedings. But rather, on the "unwillingness to subject
those suspected of a crime to the trilemma of self-accusation,
perjury or contempt". Pennsylvania, 496 U.S. 594, n.8.
Therefore, rather than focusing on the "falsity" nature
• of the compelled answer that Adeyemo gave as the basis to deny
*
*
his eligibility for the Fifth amendment claim.. The. Eighth
circuit court of appeal should have '"focused its determination • on what truthful answer might disclose rather than on what
information is sought by the questioner". Zicarelli, 406 U.S.
at 480 , Hoffman, 341 U.S. at 486. As a "conerstone" argument _
that avails. The Supreme Court has held time and time again
with clarity and candor that, "an .accused testimony under
. oath in a plea colloquy where the accused pleads guilty in a
federal charge does not waive his right to invoke privilege
against self-incrimination under federal Constitution". Mitchell,
526 U.S. at 323. An accussed "does not lose this protection
by reason of his conviction of a crime" Minnesota v. Murphy,
465 U.S. 420, 426(1984). Hence, "when detrmining whether a
claimant is eligible for the Fifth amendment claim1,' "it is
the effect of the content that is determinative" not the
"falsity" characteristic of the witness' compelled answer.
Zicarelli, 406 U.S at480, California, 402 U.S at 437.
Straight forward application of "Hiibel's" precedent
leads to but one' conclusion. The Eighth Circuit court of
appeals has taken an undue advantage of the precedential
vacuum in "Hiibel". If the majority in "Hiibel" had wanted
to include "falsity" or "truthfulness" component as part of
threshold ^eligibility requirement to deny or grant a Fifth
amendment claim, it would have said so. This opinion simply
ignored that Adeyemo's "freewill was overborne"during these
proceedings, and his"response whether based on truth or falsity
contained testimonial component" and communication protected

19
under the Fifth amendment privilege against self-incrimination.
Pennsylvania, 496 at 597. '
'
In same vein, if compulsory "self-disclosure" was not protected-,
under "Hiibel", the Supreme Court would not have warned that
"a truthful responses of an innocent witness, as well as those
of a wrong doer may provide the government with incriminating
evidence from the speaker's own mouth". Ohio, 532 U.S. at 17-21.
Here, Adeyemo's Fifth amendment eligibility claim is factually
distinctive to "Hiibel1s", where the Supreme Court found that
Hiibel's "disclosure of his name and identity presented no
reasonable danger of incrimination", as to warrant the protection.
The prudence 0f this distinction is apparent in claim to spot­
light the conflicting and erroneous decisions of the appellate
court. Therefore, there could be no better illustration of
a claim of eligibility under the "self-incrimination clause",
— than this case affords the wisdom of "Hiibel" and the legal
authorities articulated. Adeyemo kept silent and did not
volunteer these incriminating name and identity for fear of
federal criminal prosecution for a "separate offense" in
California, as required by the law. "To punish a person because
he has done what the law plainly allows him to do is a due
violation of the most basic .sort". United States v. Goodwin,
457 U.S. 368, 372 (1980).
The existence of a concededly meritorious Fifth amendment
violation claim is dispositive, and compelling to grant this
Certiorari and bring the appellate court's opinion to berth
with the Fifth Amendment Constitutional protection. Mcst.
tellingly, the "compelled self-disclosure", or "involuntary
confession", or "judicially coerced self-disclosure" of the
answers that the Eighth Circuit Court of Appeals expected from
Adeyemo during these proceedings. Is strictly prohibited under
the Fifth amendment, and in conflict with the Supreme Court's
precedents. "Hoffman, 341 U.S. at id 490 ("The immediate and
potential evils of compulsory self-disclosure transcend any
' dificulties that the exercise of the privilege might impose
on the society on the detection and prosecution of crime").
Chavez v. Martinez, 538 U.S. 760,770('2003) (A violation of the Fifth"

20
amendment right against self-incrimination "occurs only if one
has been compelled to be a witness against himself in a criminal
case"), United States v. Patane, 542 U.'S. 630, 636-37 (2004)
("The clause cannot be violated by introduction of non-testimonial
evidence obtained as a result of voluntary statement"), Allen,
478 U.S. at 375 ("Involuntary -.confessions excluded nob: because such
are likely to be true, but because the method used to extract
them offend an underlying principle in the enforcement of our
Constitution, that is accusatorial and not inquisatorial"). The most
telling features of "Hiibel" are in full display.
(II)
THE EIGHTH COURT OF APPEALS ERRED AND HAS EMERGED A CONFLCIT
WITH THE SUPREME COURT ' S PRECEDENT ON THE APPLICATION OF THE
NEXUS REQUIRIMENT TO § 1503 OBSTRUCTION OF JUSTICE STATUTE
A prequisite to a violation and conviction under 18 U.S.C.
, §1503 "omnibus clause" statute, is the existence of the "nexus"
the connects the defendant's obstructive act with the due
.administration of justice in a judicial or grand jury proceedings.
A natural reading of the "nexus requirement" applicable law
under §1503, requires a trial court to provide the "nexus
requirement " instruction, and requires its prove beyond a
reasonable doubt by the government.
, As a -compelling argument that sits at the "heartland"
of this petition. The Eighth Circuit Court of Appeals has erred and conflicted with the Supreme Court's "controlling precedents"
of Aguilar, 515 U.S. 593, Arthur Andersen LLP v. United States,
544 U.S. 696 (2005) and Mhrinello v. United States, 138S.Ct 1101
200L.Ed. 2d 356 (2018) on the application of the "nexus requirement"’
to obstruction of justice statutes with "catch-all" provision" and
omnibus clause". When at its core, the applellate court failed
to find that; (l).The district court was require to give instructions on
the nexus requirement, (2). Convey to the jury that the government
was required to prove beyond reasonable doubt the "nexus" between
Adeyemo's alleged false statement, and the ..obstruction of the
due administation of justice charged inviolation of § 1503
under counts One to Four.-

It is of obvious

' 21
relevance that the appellate court's

opinion has turned its back on §1503's history of statutory
construction, and conflicted with these Supreme Court's
precedents. Pragmatically, the amorphous nature of the "omnibus
clause does not insulate the trial court to exclude the "nexus
requirement" instruction. §. 1503 "omnibuscbiause logically
serves as a "catch all" provision for obstructive conducts",
and embraces the widest variety of conducts tihaitintentionally
or corruptly endeavor to impede judicial or grand jury proceedings.
U&rinnello, 138S.Ct 1101 at 1103, Aguilar, 515 U.S at 598.
Seemingly, the.- conduct; that: §.1503. pr.aacrib.es; consist: o.f.
the "actus reus" and "mens rea". The "actus reus" is the
endeavoring to influence and obstruct, or impede the due
administration of justice. The "mens rea" is acting corruptly
with specific intent to obstruct a judicial or grand jury
proceeding. United States v. Afpelbaum, 445 U.S 115, 131 (1980)
("In criminal law both culpable mens rea and criminal actus
are generrally required for an offense of conviction").
Contrary to the Eighth Circuit opinion, a criminal
prosecution based on false statement under § 1503 does not
obliterate, eviscerate and obviate the "nexus" requirement"
propounded by "Aguilar". As "Aguilar" makes clear, it is the'
"horn-book law" that to secure a conviction under § 1503 more
is required. First, there must be a pending judicial proceeding.
Second, the defendant must have knowledge or notice of the
pending judicial proceeding. Thirdly, the defendant must have
acted with "specific intent to obstruct or impede the proceeding
in its due administration of justice". Aguilar, 515 U.S. at
599 ("The action taken by the accused must be with intent to
influence judicial or grand jury proceedings"). In addition,
a conviction under this provision requires proof of "nexus"
between defendant's acts and an intent to impede judicial
proceedingds. "The court required the government to show there
was[is] nexus between defendant's obstructive conduct and
particular judicial proceeding".Marinello, 138 S.Ct. 1101 id 1102.
By its present manifestation, the Supreme Court has neither
departed from the "nexus requirement" law. Neat excluded its

22
application from a Jury instruction in § 1503 prosecution based
on false statement, as to justify the appellate conflict with
the full thrust of this precedent. Infact, the "nexus requirement"law
Is:;suchaLong-standing to the "omnibus clause" provisions, that
the Supreme Court would not have cawed out an exception to its
lower courts' full compliance without saying so. So far as.
important here, the Eighth Circuit Court of Appelas cannot therefore
systemically and injudciously proscribed the "nexus requirement"
and eviscerate the "beyond reasonable doubt" "standard of proof"
required by the government in Adeyemo's'case. Or in a §1503
false-statement based prosecution.
The "cornerstone" argument here is that the "nexus requirement"
is a significant substantive construction of 18 U.S.C. § 1503,
and a significant constraint on the power of the government. Even so,
the breadth of § 1503 is not without limit, and prosecutions
and convictions under § 1503 are not untethered. Micre so that
a trial court, must not exclude*, circumvent, or eschew it from
its jury instructions. Marinello, 138 S.Ct. 1101 at 1108 ("To
rely upon prosecutorial discretion to narrow the otherwise wideranging scope of a criminal Statute's highly abstract general
statutory language', places great power in the hands of the
prosecutors. Doing so risks allowing policeman, and juries to
pursue their personal predilections").
' '
M©st tellingly, the "nexus

requirement"isJifuerall to the

legal function and operative effects of § 1503, and its application
is particular strict in obstruction of justice statutes that
are broadly-worded. The judicially "nexus requirement" is a
primary objective limitations oh §1503 expansive reach. Without
which, § 1503 would not provide fair warning to the world "in
the language that common world will understand of what the law
intends to do if a certain line is passed". Arthur Andersen,
n

544 U.S. at 703, Aguilar, 515 U.S. at 600. Hence, a criminal
prosecution under §1503 based on false statement. Is not a
jit

'H

foot in the door, or an open sesame, or strict liablity case
to exclude the "nexus requirement" propounded by "Aguilar" from
the jury instruction in Adeyemo's case. This court is aware that
§ 1503 has long been construed and applied in a way that allowed

23
"nexus requirement" jury instruction. The -"nexus requirement" does not
exist in vacuum. It is a Federal law that is "binding" cn lower courts
including the Eighth Circuit Court of Appeals. However, the appellate
court 's opinion has failed to explain why the district court excluded
the "nexus requirement" jury instruction, because it could not explain
why Adeyemo's "nexus requirement" claim was barred by "Aguilar's
authoritative precedent. Notable absence of any Supreme Court's case
law on the face on this opinion, speaks volume to the error and conflict
claims in support of this certiorai. Hence, the criteria relied upon or
tacitly implied to deny Adeyemo's argument for "nexus requirement" jury
instructions. Have no textual and precedential basis in law, and the
conviction therefrom under § 1503 for an obstruction of justice based
on false statement is "patently flawed',' and in conflict with "Aguilar",
"Arthur Andersen" aid "Marinello's" "nexus requirement" precedents.
It is axiomatic that violations and convictions under "1503 required
something specifically, a nexus between obstructive act and judical
, proceeding". Arthur Andersen, 544 U.S. id 708. The "nexus requirement"
"is a correct construction of §1503 very broad language". Aguilar,
515 U.S. 593. Bearing on this claim, there compelling reasons under
the law that barred the appellate court from conflicting with these
"controlling precedents" on this issue.
In " Aguilar", in construing the elements under the "very broad
broad language" of the "catch-all" provision, Twenty Six years ago.
Aguilar, 5151 U.S. at 599. The Supreme Court made it clear that the
endeavor punished under § 1503 must not only be made with wrongful
intent, and an explicit intent alone to obstruct justice is therefore
not necessary for conviction under § 1503. Under this analysis, in
addition to proof of "Knowledge" kid "specific intent". The "Aguilar"
court charted the "metes and bounds" ©f § 1503 "omnibus clause", by
expressly embossing, and appoved a "nexus requirement" limitation on
the "specific intent" eLement, and approved the "nexus requirement"
adopted by numbers of court of appeals. Aguildr 515 U.S. at 593.
According to the "nexus requirement" analysis, the Supreme Court
has held that the act or charged conduct "must have relationship in
time, causation and logic with the grand jury or judicial proceeding".
Aguilar, 515 U.S. id 593, 599("Some courts have phrased this showing
as a "nexus requirement1-')';'Therefs:es,r:t6"-satisfy thistEeqtairement,'fAdeyemo's

24
conduct must have the ’’natural and probable effect" of interfering
with the due administration of justice. "This is not to say ,
defendant action need be successful, an endeavor suffices".
"If the defendant lacks knowlwedge that is action are likely
to affect the judicial proceeding, he lacks the requisite intent
to obstruct" . Aguilar , 515 U.S id 599, Marinello, 138 S.Ct.
at 1105 ("We noted that some courts had imposed a nexus requirement
that the defendant's act must have a relationship in time, causation
or logic with judicial proceeding").
Indeed the. Supreme Court's history of statutory construction
of § 1503 "nexus requirement"., is'highly instructive?'to showcase the appellate court's erroneous conflict with approval. The
lower court simply ignored that, putatively the "nexus requirement"
limitation is best understood as an articulation of proof of
intent that will satisfy the "mens rea" requirement of "corruptly
obstructing" and "endeavoring" to obstruct. Cater v. United States,
530 U.S. 255, 259 (2000) ("Specific intent requires an intent to
achieve the prohibited act"). To this end, the need for the
"nexus requirement" instruction to be conveyed and submitted
to the jury in Adeyemo's case, rather than withheld. Conforms
with both the history of statutory construction and application
of the "nexus requirement" to §1503 "omnibus*clause".
This is particularly true in this case, because the "nexus
requirement imposed a requirement of "natural and probable"
consequences that intertwined with the "specific intent" element,
as a formulation of "corruptly" and corruptly endeavoring to
obstruet,,which the court must required the government to prove
beyond a reasonable doubt. A prosecution makes this showing
when it establihes beyond reaonable doubt the "relationship in
time , causation and logic" between Adeyemo s statement and
the judicial proceedings charged under Counts One to Four.
Under "Aguiiar 's " nexus requirement" legal standard that avails,
The "nexus requirement , authoritatively embossed in the '*specific
intent"element of § 1503, is a "benchmark" to determine whether
Adeyemo acted with the “
requisite specific intent" that sufficed
a violation of § 1503. Rehaif v. United States, 588 U.S’.
(2019)
quoting United States v. XCitment Video Inc.,513 U.S. 64, 72(1994)

4‘

25
("GatlgC§§§ intended to require a defendant to posses a culpable
mental state regarding each statutory elements that criminalizes
otherwise an innocent conduct") .
Therefore, "Aguilar's fl

fl

nexus requirement 'required
Adeyemo be convicted of an obstruction of justice under § 1503 ,
only if the jury by trier of fact and pursuant to the trial
court's."nexus" instrcution and its prove by'the government■
beyond a reasonable doubt. Found that the alleged false statement
had the "natural and probable"effect on impeding, the due
administration of justice charged under Count One to Four. At
its core, the hemming function of the "nexus requirement" would
have been met, and the conflict would have been avoided in this
case . If, (l) The trial court had conveyed the "nexus requirement"
jury instruction. (2) ..Instructed the jury that the government
must prove the "nexus" "beyond a reasonable doubt. (3). If the
jury had found that Adeyemo's statement had the "natural and
probable effects " of interfering with the due administration
of justice. Aguilar, 515 U.S. at 593 ("The prosecution must
prove that the endeavor have the natural and probable effect
of interfering with due administration of justice") .
Stated differently, the law is settled beyond controversy
that, an essential element of the "nexus requirement" analysis
is the defendant's intent. Hence, determining Adeyemo's "specific
intent" to obstruct justice under § 1503 was a question of a
fact and proof that the jury must resolved by trier of fact,
following a "nexus requirement" jury instruction. Hence, conveying
the "nexus requirement" limitation instruction, was a touchstone
function of the "nexus requirement", and prerequisite to the
government's proof of the "specific intent" that satisfied the
"mens rea" eLement under § 1503. The "nexus requirement" jury
instruction must be conveyed and proved beyond a reasonable doubt
to sustain Adeyemo's conviction under § 1503 . Nothing in the
history of the statutory construction of § 1503'required the
trial court to exclude the "nexus requirement" instruction.
Marine!19,1101 at 1106-1108 ("In interpreting fchM. Statute, we

«

26
pointed to earlier cases in which courts had held the .government
must prove an intent to influence judicial or grand jury proceeding"),
Houston v._ Hill, 482 U.S. 451, 459 (1987) ("Criminal Statutes must
be scrutinized with particular care"), X_citment Video,513 U.S
at 72-73, n.3 ("Scienter requirement advance this basic principle
of Criminal law, by ^helping to separate those who understand the
wrongful nature of their act from those who do not") .
Therefore, this court must decline the Eighth Circuit's
Appellate Court's invitation and attempt to rewrite the"applicable
law "for an obstruction of justice statute with "ominibus clause",
in such a fashion that exclude the "nexus requirement". It is
argued with precision that the jury's inquiry and determination
on whether or not Adeyemo alleged
false statement,* had "natural
*
and probable effect" of impeeding justice as: gharged under Counts
One to Four. Was an appropriate inquiry, and indeed Statutorily
required in the pnacuxts controlled by § 1503. Hence, the trial
court s failure to convey the "nexus requirement" jury instruction,
allowed .a bare-bone "strict-liability" prosecution under § 1503.
Such undesirable legal consequences from a court's failure to •
submit the nexus requirement' instruction, was precisely what
th Supreme Court sought to avoid by embossing the "nexus requirement"
into obstruction of justice statute with "omnibus clause'.' United
States v. Martin-Linen Supply Co., 430 U.S. 564, 572-73(1977)
("The jury's overriding responsibility is to stand between the
accused and a positively and abusive government that is in.
command of the criminal function").
"Indeed it is stricking how little culpability the instruction
required in absence of the "nexus requirement"instruction in this case.
As it stands, the laudable purpose and profound impact of the
"nexus requirement", as a "metes and bounds" under §1503, is
brought into, proper perspective.• Arthur Andersen, 544 U.S\ at
706. Even more striking, the prudence of ''Aguilar", "Arthur
Andersen" and "Marinello If IInexus" triology that the appellate
court should have adopted, rather than conflicted with. Provides
a sweeping assertion that is readily apparent in the context
of a false statement forming the basis of obstruction of justice
criminal conviction in Adeyemo s case.

27
Neither the prudence of "Aguilar" nor its logic requires
that a Federal Court does not have to convey the "nexus requirement"
jury instruction in a § 1503 prosecution, based on false statement.
United States v. Gaudin, 515 U.S. 506, 509-11 (1998) (This Court
held the trial judge's failure to submit the question of
"materiality" to the jury in 18 U.S.C. § 1001 prosecution denied
him the Fifth and Sixth amendment rights). More critical to this
case, the thrust of these cases indicates that providing the "nexus
requirement" jury instruction, in addition to its prove by the
government beyond reasonable doubt, and the jury finding. Are
critical to sustain a valid conviction, as thses give the jury's
"nexus requirement" factual-finding a useful function to fulfil
in a § 1503 prosecution based on .false statement.
The "Aguilar's" "nexus requirement" remains paramount, as
it separates wrongful conduct from innocent act and differentiates
mere perjury from obstruction of justice under§1503. Because the
§iupretna
Court has admonished that, "not all false testimony or
statement constitutes obstruction of justice". In RE Michael, 326
U.S. 224, 227-228 (1945). Inother words, perjury alone, or mere
proof of false statement, is insufficient to support proof of
"specific intent" or "corruptly endeavoring" that suffices a
violation of § 1503 under "Aguilar'd' "nexus"'scrutiny. The "nexus
requirement" jury determination is not about finding whether
Adeyemo's statement was true of false. Rather, the core criminality
determination by the jury pursuant to the "nexus requirement" jury
instruction, should have been whether Adeyemo's statement had the
"natural and probable effects" of impeding^ the due administration
of justice in the proceedings charged under Counts One to Four.
After all, it is well-established that obstructioncofjjustdeeiis
not inherent in all false testimony, and neither the language
of § 1503, not its purpose makes rendering false statement alone —
an obstruction of justice in absence of the "nexus" instruction,
and its "prove beyond a reasonable doubt" by the government in
Adeyemo's case, and the jury finding therefrom.
A fortiori, that Adeyemo's alleged false statement "had
nexus, relationship in time, causation, or logic, or natural and
probable effect of impeding justice was relevant in § 1503 jury

28
determination to the question whether the defendant had specific
intent to impeded justice in a federal judicial proceeding. Owing
■ to these considerations, adverted to. It is fathomless and impossible
to square the Eighth Circuit Court Of AppeMs affirmation of the
district court's failure to submit the "nexus requirement"question
to the jury, without triggering a saliient conflict with the
Supreme Court's precedent claim on this issue. To this end, the
appellate opinion under scrutiny runs afoul ,of the Supreme Court's
legal rational and cognitive reasoning with regards to the "nexus
requirement'engrafted by "Aguilar" Court. By parity of reasoning,
the true significance of this Court's precedent. Counsels that
the appellate court should have held that the district court was
required to convey the "nexus requirement" instruction, required
its proof by the government, and required its proof by the government
‘"beyond a reasonable doubt", inorder to bring Adeyemo's conduct and
conviction within "Aguilar's" "nexus requirement" "legal standard" '
under 18 U.S.C. § 1503.
Therefore, to analogized this cogent and significant claim of
conflict with the Supreme Court's precedent claim. In "Aguilar",
in giving meaning to the operative effects of the "nexus requirement"
jury instruction in a §1503 prosecution based on false statement.
*
The Supreme Court upheld the Ninth Circuit Appellate Court's
reversal of the criminal conviction under 1503, for making false
statement to an FBI investigator during a grandjury investigation,
due to lack'of "nexus". Particularly, the Court held that the
"nexus requirement" demanded that the false statemant had "a
relationship in time, causation or logic with the judicial proceeding",
and the the government must prove the "nexus" beyond a reasonable
doubt. Aguilar 515 U.S. at 599.
Far from overriding "Aguilar's ft ftnexus requirement". In Arthur
Andersen, the Supreme Court applied the "nexus requirement" to
criminal prosecution under similarly-worded 18 U.S.C. § 1512(b)(2),
and reversed the obstruction of justice criminal conviction affirmed
by the Fifth Circuit. This Court held that "the jury instruction
failed to convey properly the element of corrupt persuasion conviction
under § 1512(b). Arthur Andersen, 544 U.S. id 696. This Court concluded,
that § 1512,in absence of the of the "nexus requirement" instruction,
/

"

• 29
"the instruction led also led the jury to believe that it did not'
have to find any nexus between the persuasion to destroy documents
and any particular.proceeding". Arthur Andersen, 544 U.S. id 697. The
Court then concluded that § 1512(b)(2)(A) required the government to
show "nexus" with a particular particular proceeding". Arthur
Andersen, 544 U.S. id

707-708.

But this is not all. In "Marinello", relying on "Aguilar" and
"Arthur Andersen" "nexus requirement" "legal standard" application
to 26 U.S.C. § 7212(a) "omnibus clause". The Supreme Court reversed
the Second Circuit Appellate Court's criminal conviction affirmation,'
and held that"conviction under § 7212(a) was reversed because the jury ,
was not »instructed ■'
to find that the defendant knew he was under
investigation and. intended to curruptly interfer therewith, and the
government had to show nexus between defendant's conduct and IRS
audit, or other targeted administrative action" .
As a threshold argument, the logic of this legal triology is
demonstrated by this case, and yields a clear YES answer to the
question presented for Certiorari. This reasoning applies with similar
strength "and is highly instructive" as a correct "legal standard"
that the Eighth Circuit Court of Appeals should have adopted in
Adeyemo's case, rather than conflciting with it. Finding the leagl
reasonings of these cases to be.sound. It should be noted that the
appellate court could riot spin a cohesive yarn around the failure of
the trial court to submit .the "nexus requirement" question to the
_

•

jury. Therefore,joining these together makes sense as to how this
court should resolve this conflict .

(III)
THE EIGHTH CIRCUIT OPINION IS IN CONFLICT WITH THE SUPREME
COURT'S ARTHUR ANDERSEN'S PRECEDENT ON INSTRUCTIONAL
FLAW TO A COURT'S FAILURE TO CONVEY THE NEXUS INSTRUCTION .
The legal impacts inflicted on Adeyemo's fundamental right by the
district court's failure to convey and submit the "nexus requirement"
instruction, cannot be overstated. Central to this Certiorari is the determination whether the failure to convey the "nexus requirement"
instruction rendered the instruction "patently flawed',' and in conflict

30
' -with the

-

Supreme Court's precedent in "Arthur Andersen".

So far as important here, it should be noted that the Supreme
Court has steadfastly rejected any opinion, or judicial practice that
failed to convey the "nexus requirement" instruction to the jury. Or
leads the jury to believe it does not have to find any '"nexus" between
the defendant's act or statement and particular judicial proceeding.
Therefore, the Supreme Court's decision in "Arthur Andersen" is
analogous to Adeyemo's claim in issue.
In "Arthur Andersen", though the Court did not expressly undertake
a "harmless error review" of the instruction errors relating to the
failure to convey the "nexus requirement" instruction. However, the
Court held that " a jury instruction is misleading for failing to
adquately convey the intent element of obstruction statutes'under
18 U.S.C. § 1512(b)(2), and "were infirm for another reason". Arthur
Andersen, 544 U.S. id_ 707. When " the instruction also led the jury
to believe that it did not have to find any nexus between persuasion .
to destroy and any particular proceedings". Arthur Andersen, id 697,
and 707. Hence, the jury instruction here were flawed in important
respect". Arthur Andersen, id 708.
"This reasoning here applied with similar strength in buttress
of Adeyemo's claim of conflict with the Supreme Court's precedent.
Marinello, 138 S.CT 1101 at 1102. "Joining these meanings together
■ makes sense both linguitically and in the statutory scheme".
Arthur Andersen, id 705. The district court's failure to submit the
"nexus requirement" instruction, allowed the jury to convict Adeyemo
on a "legal standard" that is in conf lict'wi'th "Arthur Andersen" and
"Marinello". This failure rendered the jury instruction "infirm for
another reason". "They led the jury to believe it did not have to
find any nexus between"Adeyemo's alleged false statement, and the
■ obstruction of due administration of justice charged under Counts
One to Four. To this end, the Eighth Circuit Court's opinion is
erroneous and in conflict with the Supreme Court's ;previously-settled
precedents. Marinello, at 1105( The Court reversed the obstruction
of justice conviction by the Fifth Circuit on the basis that, the
judge however did not instruct the jury that it must find that
Marinello knew he was under investigation and intended corruptly to
interfer with that investigation").'

.31
(IV)
THE EIGHTH CIRCUIT OPINION IS IN CONFLICT WITH THE SUFFICIENCY OF
EVIDENCE LEGAL STANDARD APPLICATION PRECEDENT TO § 1503
Critical to the Supreme . Court's application of the "nexus
requirement to § 1503 criminal prosecution. Is the issue of the
"sufficiency of the evidence" rule propounded by "Aguilar" if
the "nexus requirement" is absent. In Adeyemo's case the Eighth
circuit court erroneously found the "sufficiency of the evidence"
in the midst of the absence of the "nexus requirement" jury instruction.
Under "Aguilar's" "nexus requirement"framework and scrutiny. It
well-established beyond any doubt that, § 1503 obstruction of
justice prosecution and conviction cannot solely rest on proof
of evicence of perjury. The government must prove the "nexus"
. "beyond a reasonable doubt", and the jury must find sufficiency
of the "nexus" evidence.therefrom
To this end, the district court's failure to convey the "nexus
requirement" jury instruction, is ultimately dispositive to bar
in its entirety,the "sufficiency of the evidence " concluded by
the Eighth Circuit Court of Appeals. See"Appendix Number A" . - •
Pragmatically, providing the "nexus requirement" instruction was
r
necessarily connected to the jury finding of the "Sufficiency of
evidence" of the "specific intent" and "corruptly endeavoring"
elements to support Adeyemo's conviction under § 1503. Here, the
absence of the jury "nexus requirement" instruction undermines the
credulity.of the "sufficiency of the evidence " found by the appellate
court.
Such erroneous finding has triggered another conflict with
the Supreme Court's precedent that is readily apparent under
"Aguilar's"legal standard that avails in claim. The 'sufficiency
of the evidence" that supprts Adeyemo's conviction under§1503.
Requires; (1) The "nexus requirement" jury instruction, (2),The
prosecution prove of the "nexus" "beyond a reasonable doubt",
(3).The jury finding of the "nexus" that intertwined with the
"specific intent" to obstruct justice.
Therefore, in absence of the "nexus requirement" instruction and
its prove by the government "beyond a reasonable doubt", and the jury

32
finding in Adeyemo's case. It is impossible to conclude that evidencewas sufficient to convict Adeyemo of obstruction of justice under
§1503, without emerging a conflict with the "Aguilar's" "sufficiency
of evidence.ft ft legal standard" application to § 1503. The petitioner
has found no authority that has so excluded the application of the
"nexus requirement" analysis from the 'sufficiency of evdence" inquiry
in a § 1503 prosecution. The jury had the ultimate task of determining
the facts and evidence based on the jury instructions, and its proof
by the government "beyond a reasonable doubt.
Agreeable to this usage and principle, Adeyemo argues that there
was insufficient evidence to enable a rational trier of fact conclude
that Adeyemo obstructed justice. No rational trier of fact could
have found or inferred the "specific intent" element.of § 1503 obstruction
of justice crime "beyond a reasonable doubt". When the trial court
failed to convey the "nexus requirement" jury instruction required
to find:such evidence. Jackson v. Virginia, 443 U.S. 307, 318-19
(1979). Adeyemo's legal defense and evidence on the "nexus requirement"
were never presented to the.: jury,and the absence of the "nexus"
jury instruction'relieved the government of its burden of proof.
Without these, it is argued that a reasonable doubt exist as to
the "sufficiency of mens rea" that support the' requisite "specific
intent" evidence to obstruct the due administration of justice under
§ 1503. '
It

,
.
stands to reason that the thrust and natural.reading of

"Aguilar's" "sufficiency of evidence" rule. Saliently refute the
appellate court's finding of "sufficiency of evidence" in this case.The
Supreme. Court has always held in negative that without evidence
of "relationship in time", "causation", or "logic "..Mere-per jury
or false statement.alone cannot "be said to have to have the natural
and probable effect on interfering with due administration of justice".
Aguilar, 515 U.S. 601. Here, "Aguilar's" reasoning applies with
similar strength and weighs against the conflict emerging from the
Eighth^Circuit Court Of Appeals' opinion.

•33
(V)
TEE EIGHTH CIRCUIT APPELLATE OPINION HAS TRIGGERED A CONFLICT BETWEEN
COURT OF APPEALS ON THE APPLICATION OF THE NEXUS REQUIREMENT TO § 1503
PROSECUTION AND CONVICTION
The decision of the Eighth Circuit Court of Appeals has divided
the lower courts, and is in conflict with the First, Second, Third
Fourth, Tenth and Eleventh Circuit Court of Appeals . On the scope, and
application of the federal "nexus requirement" law to jury' instruction,
and the "sufficiency of the evidence"rule to § 1503 criminal
prosecution based on false statement. Triggering a compelling need
to resolve these conflicts, to ensure uniform Federal rule on the
points of law. United-states v. Dionisio, 410, U.S 1, 5 (1973),( In
view of a clear conflict " court granted certiorari"), Calhoon
v. Harvey, 397 U.S. 134, 137 (1964) ("Because of the importance of
the question presented and conflicting view in the court of appeals •
and the district courts, we granted Certiorari"), Aguilar, 515 U.S.
at 595
Arthur Andersen, 544 U.S, ,-at 702 ("Because of a split of
authority regarding the meaning of § 1512(b), we granted certiorari").
These courts have applied the trial courts' failure to convey .
"Aguilar's" "nexus requirement" jury instruction, to concludes
finding of " insufficiency of the evidence" and reversal of § 1503
criminal prosecution, based on false statement. These circuits have
uniformly held that in cases involving § 1503 prosecution based on
false statement. The jury must be clearly and explicitly instructed
that "false testimony alone will not provide the basis for a § 1503
convition unless the statement at issue had "natural and probable
effects of impeding due administration of justice. These courts
reasoned , that showing this relationship serves the salutary end of
§ 1503 "omnibus clause", and necessary to distinguish a § 1503
offense from mere perjury. According to these courts, the "natural
and probable effects", or "relationship in time", "causation", or
"logic" instruction is necessary however "because particular acts
although arguably interfering with some aspects of the administration
of justice, may be beyond the scope of 1503 because the nexus to the
progress of the judicial proceeding is too attenuated, and the #
statutory construction therefore loo-Strained". United States v. Wood,
6 F. 3d. 692, 696 (10th cir. 1993) .

34
To the contrary, the Fifth. .Circuit -and Eighth..'Circuit, have, not .required
this explicit instruction as long as the jury is properly instructed .
on the elements. United States v. Brown, 459 F.3d 509, 530-32,n.l9.
(5th cir. 2006)("We are bound by the precedent of this circuit, and under
that precedent no other proof of impediment is required to demonstrate
obstruction under 1503
because perjurious testimony has the effect
of closing-off entirely the avenue of inquiry being pursued". See also
United States v. Sharpe, 193 F.3d 852, 864-65 (5th cir. 1999),,"AppendixA".
However, under the "Aguilar", "Arthur Andersen" and "Marinello"
"nexus requirement" application to § 1503 prosecution. It is certain
that Adeyemo would have been able to obtain a reversal of his criminal
conviction in the "First", "Second", "Third", "Fourth" and "Eleventh"
Court of Appeals ..In these Circuits, the construction, interpretation
and application of the "nexus requirement" to § 1503 prosecution based
on false statement in not a myth, or a federal law that exists in vacuum.
Therefore, the resolution of these conflicts is long-overdue.
*

Notably, the First Circuit has held in United States v. Calipari,
368 F.3d 22, 42-43, n.10 (1st cir.
2004). That, since the government
must prove a "nexus" to support a § 1503 conviction. The "nexus" must
be clearly-stated and articulated in the jury charge. "It is our believe
that the better practice would be to include the natural and probable ,
language in'the instruction". To the same effect, the -Second Circuit
has applied the district court 's failure to^convey or submit the "nexus"
4
jury instruction as a basis to find insufficiency of the evidence that
supported a reversal of § 1503 conviction based on false statement.

.

United States v. Sun Myung Moon, 718 F.2d 1210, 1236 (2nd cir. 1983)
("Specific intent to impede administration of justice is an essential
element of 18 U.S.C 1503 violation which the government must prove
beyond a reasonable doubt"), United States v. Schwarz, 283 F.3d 76,
D7-109 (2nd cir. 2002)("We applied Aguilar and held that in order
to violate 1503, a defendant’s false statement must be made with specific
intent to obstruct federal grand jury(or another judicial proceeding)"
"We believe the better course in future would be for courts to make
explicit that to violate § 1503 omnibus clause,a defendant must know
that her or his conduct has the natural and probable effect of obstructing
the judicial or grand jury proceeding". United States v. Triumph Capital,
Grp. Inc., 544 F.3d 149, 171 (2nd cir. 2008).-

35
■'We encourage* district courts in the future to make clear that the
required mental state is knowledge that the defendants's conduct had
the natural and probable effect of obstructing justice", id 171. To
this end, in United States v. Quttrone, 441 F.3d 153 (2nd cir.2005)
the court vacated the defendant's witness tampering conviction and
remanded the case to the district court because the jury instruction
on this count under 18 U.S.C 1512 violation, were insufficient because
they stated no "nexus" element applied to the charge. Likewise, the
defendant's grand jury and agency obstruction under 1503 were vacated
because the jury instruction on these counts relieved the jury of ;
having to make findings on wrongful" intent"and"nexus requirement"in
assessing criminal liability. Particularly and importantly, the court
noted that "this case is now headed back to the district court for
yet another trial
what will be different will be the court's
charge on the nexus requirement", id 182. In Schwarz,- the Second Circuit
applied the "nexus requirement" to find insufficient evidence that
supported the reversal of obstruction of justice conviction under § 1503
based on false statement. Schwarz, 283 F.3d at 110.
Similarly, in United States v. Tyler, 732 F.3d 241, 249-50 (3rd.
cir., 2013), The court stated that " a nexus requirement instruction was
required to ensure that innocent conduct is not punished". In same
respect, The Fourth Circuit in United States v.Littleton, 76 F.3d 614, *
619 (4th cir. 3995) vacated both perjury and § 1503 convictions on the
grounds that, "an obstruction of justice prosecution cannot rest solely
’the allegation of perjury
All the government proved was thatLittleton had a motive to lie and that by itself is clearly insufficent
to establish the requisite mens rea under 1503. The Fourth Circuit in
United v. Blair, 661 F.3d 755, 767 (4th cir. 2011), also applied the
"nexus requirement!'to . vacate § 1503 conviction on the grounds that,
"the government therefore was required to establish a nexus between
the false statement and obstruction of justice"'.
In same vein, the Eleventh Circuit has also applied the "nexus
requirement" instruction to find insufficiency of the evidence to
reverse a § 1503 conviction based on false statement. In United States
v. Thomas, 916 F.2d 647, 652 (11th cir. 1990). The court noted that
’’We^hold that the trial court must instruct a jury that the government
must prove the alleged statement had natural and probable effect of

36
of obstruction of justice", id 649. "Because proof that false statement
was of the kind having probable effect of obstructing justice is critical
in distinguishing a § 1503 offense from mere perjury, the trial court
must, clearly and explicitly instruct the jury of the necessity of finding
this relationship between statement and obstruction"
"Here the
trial court's instruction were inadequate to convey to the jury the
necessity of finding, that the alleged false statement had a natural
and probable effect of obstruction", id 652. "In the context of false
testimony however, we held the trial court must instruct the jury that
false testimony alone'will not provide basis for a §.1503 conviction
unless the testimony had the natural and probable effect of impeding
due administration of justice". "No evidence was introduced that the
statement had natural and probable effect of impeding justice", id 653.
"Only a natural and probable effect must be shown,, and the government
failed,to meet even this standard", id 653. "We find insufficient
evidence to sustain Thomas' conviction for obstruction of justice, his
convictions is reversed", id 655.
The existence of genuine conflict between the Court of Appeals on
the construction and application of § 1503 "nexus requirement" to
jury instruction, and determination of "sufficiency of the evidence"
to "false statement" based prosecution under § 1503. Vehemently support
granting this Certiorari to resolve these circuits' conflicts on the
application of

Federal "nexus requirement" instruction law.

CONCLUSION
The Supreme Court has never established that the "nexus requirement"
jury instruction should be excluded from a "false statement" based
criminal prosecution under §. 1503, and from the "sufficiency of the
evidence" determination and finding by the Courts. For the above
and forgoing reasons, Adeyemo's petition for a writ of certiorari
should be granted.
Dated: April 8, 2021

Respectfully submitted,

Michael Adefemi. Adeyemo
FCI OAKDALE II
P.0. BOX 5010
OAKDALE, LA 71463

I

APPENDIX

